<html>
<title> - H.R. 3830, A BILL TO PROVIDE FOR THE EXCHANGE OF CERTAIN LANDS WITHIN THE STATE OF UTAH</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 3830, A BILL TO PROVIDE FOR THE EXCHANGE OF CERTAIN LANDS WITHIN 
                           THE STATE OF UTAH

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                               __________

                      MAY 19, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-89

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 49-273 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 19, 1998........................................     1

Statements of Members:
    Cook, Hon. Merrill, a Representative in Congress from the 
      State of Utah..............................................     9
        Prepared statement of....................................     9
    Faleomavaega, Hon. Eni, a Delegate to Congress from American 
      Samoa......................................................    10
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1

Statements of witnesses:
    Babbitt, Hon. Bruce, Secretary of the Interior...............     6
        Prepared statement of....................................     6
    Bean, Scott, State Superintendent of Public Construction.....    22
        Prepared statement of....................................    31
    Johnson, Randy, Chairman of the Emery County Commission......    15
        Prepared statement of....................................    35
    Judd, Joe, Kane County Commissioner..........................    16
        Prepared statement of....................................    29
    Leavitt, Hon. Micheal O., Governor, State of Utah............     2
        Prepared statement of....................................     3
    Plant, Paula, Legislative Vice President, Utah PTA...........    21
        Prepared statement of....................................    29
    Terry, David, Director of Schools, Institutional Trust Land 
      Administration.............................................    24
        Prepared statement of....................................    32



  HEARING ON H.R. 3830, A BILL TO PROVIDE FOR THE EXCHANGE OF CERTAIN 
                     LANDS WITHIN THE STATE OF UTAH

                              ----------                              


                         TUESDAY, MAY 19, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 1334 Longworth House Office Building, Hon. James V. Hansen 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order.
    The Subcommittee convenes to consider H.R. 3830, a bill to 
provide for the exchange of certain lands within the State of 
Utah. At the onset, I would like to welcome Governor Mike 
Leavitt of the State of Utah, and Secretary of the Interior, 
Bruce Babbitt and appreciate their willingness in joining us 
today. Moreover, I welcome our County Commissioners, Randy 
Johnson and Joe Judd as elective representatives from affected 
counties. Last, we have a lot of folks from Utah here 
representing the school and Institutional Trust Land 
Administration, Education, and the Utah PTA. I welcome all of 
you and appreciate you being with us.
    Over 20 years ago while serving in the Utah State 
legislature and as Speaker, I worked closely with then Governor 
Scott Matheson to solve the problems that disturbs school trust 
land in Utah and the best way to live up to the mandate of 
generating revenues for the school children of Utah. Governor 
Matheson came up with ``Project Bold'' wherein we would block-
up the school trust lands in exchanges with the Federal 
Government. This seemed like a, somewhat, radical idea at the 
time, but Governor Matheson actually had foresight that would 
help bring us here today.
    Finally, during the 103d Congress, we were able to pass 
Public Law 103-93 that was designed to exchange these lands out 
of Parks and National Forests. However, difficulties with 
placing the value on these isolated tracts became impossible. 
Then in September 1996, President Clinton signed the 
proclamation that locked up the largest and cleanest supply of 
coal left in this Nation when he created the Grand Staircase 
Escalante National Monument. Unfortunately, a large share of 
this coal, not to mention the oil and gas in the monument, 
belonged to the school children of Utah. Thus, the pressure was 
on this administration to live up to the promise made by the 
President as he stood on the South Rim of the Grand Canyon to 
ensure that the school children would not suffer from the 
creation of the monument. Therefore on May 8, Secretary Babbitt 
and Governor Leavitt signed an agreement to trade out all the 
school trust lands within National Parks, national forests, and 
the monument for BLM acres elsewhere in the State, for 
substantial coal interests and $50 million. I commend the 
Governor and the Secretary for finding a way to put all of the 
difficult issues in Utah aside, and finally find a solution to 
help the school children of Utah.
    I've introduced this legislation at the request of Governor 
Leavitt and this will be called Governor Leavitt's Bill, not 
mine. And this expedited hearing is evidence of my intention to 
move this legislation as quickly as possible. I understand the 
difficulties of reaching this agreement, and I hope to move 
this bill through this unpredictable process, and, hopefully, 
we can send a bill to the President before the end of this 
Congress. It will take all involved to work toward this end.
    I look forward to working with the Governor and the 
Secretary on this landmark agreement. I look forward to the 
testimony and discussion today and I welcome our two witnesses. 
And Governor Leavitt, it's always a pleasure to have you with 
us. Secretary Babbitt, it's always a pleasure to be with you, 
sir.
    Now, Governor Leavitt, we'll turn to you and whatever time 
you have for your opening statement.

 STATEMENT OF HON. MICHEAL O. LEAVITT, GOVERNOR, STATE OF UTAH

    Governor Leavitt. Thank you, Mr. Chairman. I have submitted 
for the record my formal statement and I'll summarize that in 
the interest of time.
    Mr. Hansen. Without objection, all the statements today 
will be included in the record and we hope the people somewhat 
reduce them.
    Governor Leavitt. Well, I'd like to thank you for this 
expedited hearing and recognize, Mr. Chairman, that the 
difficult and protracted nature of this debate makes this kind 
of expedited process both necessary and prudent, and we want to 
thank you. I recognize the difficulty of it. I acknowledge the 
fact that it would require unprecedented action and I want to 
thank you, personally, for your willingness to make this effort 
with the other members of our Congressional Delegation. I'd 
like to also mention the Secretary and for the long 
negotiations that have occurred between us and our staff and 
acknowledge the fact that there have been many in this process, 
including Governor Matheson who you've spoken of, other 
Governors, and other members of our community and State.
    The problem is well-defined. Obviously, we have had since 
statehood, literally, million of acres that have been deeded to 
our school trust lands for the benefit of our children. As many 
as 377,000 of them are locked up in areas that bring it 
conflict because they are under the jurisdiction of either the 
National Parks or some other Federal agency. This is a purpose 
of being able to exchange them or what we believe to be fair 
value. There will, obviously, be those that will dispute the 
values on both sides. If this has critics, they will be on two 
sides. One that thinks that the Federal Government did not give 
us enough, and those who think the Federal Government gave us 
too much. The balance of those, obviously, creates a fair deal 
and this is, in fact, a fair deal. It represents benefits to 
the children of our State because they will, ultimately, be 
able to receive value in those lands that was designed for 
them. It will be a benefit to those who live in the areas, and 
counties because it will produce employment in areas where 
there have not been employment before and it will produce a big 
win for the environment for protecting these lands in a very 
important way.
    As has been mentioned, this will provide as well for the 
efficient management of the lands having them in a checkerboard 
fashion. The way they are currently is not efficient and not a 
good stewardship on the land.
    In conclusion, may I say, Mr. Chairman, that for 70 years 
and through the administration of 12 presidents and nine 
Governors, the Federal Government and the State of Utah have 
struggled with the management of these lands. It's during this 
administration that 177,000 more acres were locked up within a 
national monument. Seventy years and 377,000 acres is too long 
and too much. The legislation presents a rare opportunity to 
resolve this struggle.
    I'd liked to ask for your support in consummating this 
agreement. The agreement is a fair and equitable one. It helps 
reduce the tensions that have been longstanding over, 
literally, decades and generations between Utah and the Federal 
Government. It will provide the American people with priceless 
land assets that can be managed for national purposes, and it 
will enable a logical and efficient management of national 
parks, monuments, and recreation areas, and forests within 
Utah. This is the time to look forward. It's a time to look 
across the table and agree on a fair and equitable value of 
exchange that meets the scrutiny of the Department of the 
Interior and the State of Utah. It's a very sound policy that 
benefits all Americans.
    Thank you, Mr. Chairman.
    [The prepared statement of Governor Leavitt follows:]

        Statement of Governor Michael O. Leavitt, State of Utah

    Good morning Mr. Chairman, thank you for allowing me the 
opportunity to speak to you today about the exchange of Utah 
School Trust Lands located within national parks, monuments, 
recreation areas and forests. This exchange is the single most 
significant land swap in Utah since the Utah Enabling Act was 
passed in 1894. Like our enabling legislation, the current 
agreement was consummated because it brings enormous benefits 
to the Federal Government and the State of Utah. I will frame 
my remarks in terms of these benefits, trying carefully to help 
you understand why this legislation is good state and Federal 
public policy.

The Problem

    First you must understand the problem. Our enabling 
legislation granted sections 2, 16, 32, and 36 of each 36-
square-mile township to the state upon statehood. This means 
that there are thousands of 640 acre blocks of school trust 
lands distributed all around Utah. These lands were 
specifically granted to Utah for the support of the common 
schools. By law, these lands must be managed to generate 
revenue for Utah's school children. While the measleslike 
pattern created one problem for state land managers, other 
Federal designations created another difficulty.
    Three and a half decades after Utah became a state, the 
Federal Government created Arches National Monument, which 
later became Arches National Park. The boundaries of the 
monument surrounded approximately 6000 acres of Utah's school 
trust land. This created two competing management missions; the 
National Park Service is charged with preserving these lands, 
while Utah's trust land managers are charged with maximizing 
their profit potential. Because these school trust lands are 
scattered in a checkerboard pattern, neither the Federal 
Government nor state land managers could accomplish these 
missions effectively. The problem intensified with the creation 
of each new national park, national forest, Native American 
reservation, recreation area, and monument, finally resulting 
by 1990 in over 200,000 acres of school trust land embedded in 
an isolated pattern throughout these Federal reserves.
    The result has been nearly 70 years of frustration, 
distrust, and inefficiencies. Millions of dollars have been 
spent on legal battles. The Utah Schools and Lands Improvement 
Act of 1993, Public Law 103-93, was passed to help with this 
problem, but it too resulted in endless arguments over 
appraisals and tallied up large mediation, appraisal, research 
and legal costs. The acrimony and frustration reached a peak on 
September 18, 1996 when President Clinton set aside 1.7 million 
acres in southern Utah as the Grand Staircase-Escalante 
National Monument, locking up an additional 177,000 school 
trust land acres within a national monument. With a stroke of a 
pen the administration declared a national monument the size of 
Rhode Island, Delaware and Washington, DC. It should be of no 
surprise that lawsuits followed.
    As a consolation to the State of Utah, the President agreed 
that Utah's school children should not suffer because of the 
creation of the new monument. He promised to use the power of 
his office to accelerate the exchange process. I am happy to 
report to you today that the Department of Interior has worked 
fairly, constructively, and responsibly with the State of Utah 
to make an exchange of these lands happen. With the signing on 
May 8, 1998 of the agreement to exchange school trust lands, we 
have made a major step towards keeping the President's promise. 
Today I am asking you to support this agreement because it 
benefits both the Federal Government and the State of Utah. Let 
me now outline the agreement and the benefits.

The Agreement

    The entire exchange is of approximately equal value. The 
Federal Government receives all state lands within Utah's 
national parks, monuments and recreation areas. This tallies 
nearly 270,000 acres. The Federal Government also receives all 
state lands within the Navajo and Goshute Reservations (47,480 
acres) and nearly all state lands within the national forests 
(70,000 acres). In total the Federal Government receives nearly 
377,000 surface acres and 66,000 acres of mineral-rights-only 
acreage.
    You should know that since these lands are within national 
parks, monuments, recreation areas, and forests they are 
similar to the adjacent lands; they are precious lands that are 
deserving of special management considerations. Once exchanged, 
these lands will be a tremendous asset to the American people. 
They will be able to be managed like the adjacent lands without 
a competing management objective. The exchange also includes a 
provision for 47,000 acres of land with the Navajo and Goshute 
Indian Reservations to be managed in a contiguous block for 
tribal use.
    The State of Utah receives $50 million in cash previously 
set aside during the 103d Congress for the Utah Schools and 
Lands Improvement Act of 1993 (Public Law 103-93). Since this 
money has already been appropriated, H.R. 3830 is revenue 
neutral. The State of Utah also receives 160 million tons of 
coal, 185 billion cubic feet of coal bed methane resources, 
approximately 139,000 acres of land and minerals, and $13 
million to be generated from the sale of unleased coal.
    Utah's school children will benefit tremendously from an 
endowment for future education and a diversified portfolio.

The Benefits

    The State of Utah and Secretary of Interior entered into 
these negotiations with a desire to (1) consummate a fair and 
equitable exchange; (2) help resolve longstanding disputes; (3) 
protect the land and the environment where appropriate; and, 
(4) improve the efficient management of the land. H.R. 3830 
accomplishes all of these.
    The exchange is fair and equitable. The State of Utah and 
the Federal Government receive approximately equal value from 
the exchange. No single individual, corporation, or geographic 
area is unduly harmed or benefited. The agreement protects 
existing stakeholders by making sure that local governments 
continue to receive mineral lease revenues, payments in lieu of 
taxes (PILTS) the Federal budget has no fiscal impact, and the 
valid existing rights of permittees such as ranchers with 
grazing rights are protected. The primary benefactor is the 
public--both nationally and locally.
    The exchange helps resolve longstanding disputes. Utah's 
school trust land managers have agreed to drop their current 
lawsuit over the creation of the Grand Stair-

case-Escalante National Monument if this legislation is passed. 
The Federal Government and the State Trust Lands Administration 
will save millions of dollars in continuing legal battles if 
this exchange is consummated. And, President Clinton's promise 
to make sure that the school children of Utah are not hurt by 
the creation of a national monument will be fulfilled.
    The exchange protects the land and the environment where it 
is appropriate. This exchange assures the American public that 
over 257,000 acres of land that are now owned by the people of 
Utah in some of America's greatest treasures will be entirely 
managed for park and monument purposes. No longer will there be 
the threat of a development within a national park, monument, 
or recreation area that is not consistent with the larger areas 
management directive. Moreover, an additional 70,000 acres of 
state lands within the national forests in Utah will now be 
managed the same as other national forest lands. The American 
public will be assured of access to and protection of these 
prime recreation and preservation lands.
    These aren't just ordinary lands. Let me give you an 
example of some of the lands the American Public will receive 
in this exchange:

        <bullet> Eye of the Whale Arch within Arches National Park
        <bullet> The Perfect Ruin-An Ancient Anazasi ruin with 
        artifacts including intact thousand year old corn cobs within 
        the Glen Canyon NRA
        <bullet> Several hundred foot red rock cliffs overlooking the 
        Escalante River within the Grand Staircase-Escalante National 
        Monument
        <bullet> Jacob Hamblin Arch--within The Glen Canyon NRA
        <bullet> The Franklin Basin--a spectacular high mountain alpine 
        area within the Wasatch-Cache National Forest
        <bullet> Ancient Native American rock art panels within 
        Dinosaur National Monument
        <bullet> The unique geologic formations of the Waterpocket Fold 
        within Capitol Reef National Park
    On the other hand, the lands transferred to the state were 
specifically chosen with a sensitivity to environmental concerns. State 
and Federal negotiators did not include lands that would be mined by 
surface mining techniques or that are areas of critical environmental 
concern, potential wilderness or habitat for endangered species. All of 
the lands exchanged to the state will still be fully subject to all 
environmental laws applicable to resource development.
    The exchange improves the efficient management of the lands. 
Consolidation of these lands for management purposes has been a 
longstanding goal for public land managers. The checkerboard pattern 
may have made sense in the 1800s when it was believed that virtually 
all Federal and state lands would eventually be sold to private 
interests providing revenues to support the common schools and a tax 
base for state and local government.
    The Federal Homesteading Act of 1864 and Desert Land Entry Act of 
1877 were indicative of this thinking. But over the years Federal land 
policies have changed from disposition to retention, leaving the 
checkerboard pattern largely in place. As a result, a logical state and 
Federal management policy cannot exist. This exchange consolidates 
these assets both nationally and locally, providing both entities with 
a more sensible management task.

Conclusion

    For nearly 70 years and through the administrations of twelve 
presidents and nine governors, the Federal Government and the State of 
Utah have struggled with the management of these lands. It was during 
my administration that 177,000 more acres were locked within a national 
monument. Seventy years and 377,000 acres is too long and too much. 
This legislation presents a rare opportunity to resolve this struggle. 
I ask for your support in consummating this agreement. The agreement is 
fair and equitable; helps reduce tensions from longstanding disputes 
between Utah and the Federal Government; provides the American people 
with priceless land assets that can be managed for national purposes; 
and will enable logical and efficient management of national parks, 
monuments, recreation areas, and forests within Utah. Now is the time 
to look across the table and agree that a fair and equal value exchange 
that meets the scrutiny of the Department of Interior and the State of 
Utah is sound policy for all Americans.

    Mr. Hansen. Thank you, Governor. Mr. Secretary, it's a 
honor to have you with us. Turn the time to you.

   STATEMENT OF HON. BRUCE BABBITT, SECRETARY OF THE INTERIOR

    Secretary Babbitt. Mr. Chairman, I, on behalf of the 
Department and the administration, first, want to thank you for 
having this expedited hearing and for your leadership role in 
moving this agreement through the legislative process. This 
agreement has been a long time in gestation, and I do hope that 
we can--together take advantage of this moment and seal this 
agreement in Federal legislation. I don't know whether the 
opportunity would ever come again in exactly this form, whether 
it would come in this generation if at all. So, I'm most 
grateful for your efforts.
    Mr. Chairman, as you have already mentioned in your opening 
statement, this Land Exchange Agreement didn't just occur. It 
has roots that extend way back to the efforts of Governor 
Matheson with Project Bold, to your own leadership in pushing 
Public Law 103-93, providing a framework which actually made 
possible an exchange of this size and complexity. And, of 
course, President Clinton instructed me very directly at the 
time of the Monument Proclamation that he expected me, 
personally, to deliver on his promise that we would get these 
exchange issues resolved; that this administration recognized 
the obligation to the school children of Utah; and that in 
close cases we should resolve issues thoughtfully with an eye 
toward the fact that the proceeds and the values of this 
exchange going to benefit the Utah school children of that 
State.
    I think I should say once again how important the 
leadership efforts of Governor Leavitt have been to this. It 
simply would not have happened without the Governor's 
willingness to step forward, to take some risks. I remember 
well when he came to my office on a Sunday in February of the 
National Governor's Conference. We sat and talked for, 
probably, an hour one-on-one, and he said to me then. He said 
there are--not often are there these moments when we can step 
forward and transcend the day-to-day issues and implement a 
larger vision. And I think he very accurately characterized 
this as the Leavitt bill which in the spirit and impetus in 
leadership it most certainly is.
    Last, a word about the importance, once again, of moving 
this legislation. I know it's late in the session. It's late in 
a very short session, but this issue has been thoroughly 
addressed. It's been negotiated with extraordinary vigor on 
both sides, and I believe that the time to strike is now, and I 
would simply say, Mr. Chairman, I am here in support of 
Governor Leavitt, my many new friends in the State of Utah, and 
will do anything I possibly can to help, including if 
necessary, remaining silent starting right now.
    [Laughter.]
    Thank you.
    [The prepared statement of Secretary Babbitt follows:]

  Statement of Hon. Bruce Babbitt, Secretary, U.S. Department of the 
                                Interior

    Good morning, Mr. Chairman, and thank you for this 
opportunity to appear before you today concerning H.R. 3830, 
the Utah Schools and Lands Exchange Act of 1998. It is my 
pleasure to join with Governor Mike Leavitt and the entire Utah 
delegation to testify on behalf of this recently negotiated, 
comprehensive land exchange agreement between the Interior 
Department and the State of Utah.
    More than a decade ago, a great Utah governor had a vision 
of sweeping realignment of publicly owned land in Utah. Scott 
Matheson told anyone who would listen of the great benefits of 
this realignment for the State, its public schools, and for the 
United States as well. His vision, appropriately named Project 
BOLD, was ahead of its time. But it planted a seed that has 
today burst into flower.
    Less than two years ago, Governor Matheson's widow looked 
on as the President of the United States proclaimed the Grand 
Staircase-Escalante National Monument. She heard the President 
acknowledge that within the borders of the Monument were 
176,000 acres of State land, and heard his promise to work with 
the State to trade out those lands, to ensure that the school 
children of Utah will benefit from, and not be burdened by, the 
Grand Staircase-Escalante National Monument. Less than two 
weeks ago, it was my pleasure to stand with Norma Matheson and 
Mike Leavitt to celebrate the fulfillment of President 
Clinton's promise and the realization of Scott Matheson's 
dream. Many have sought this elusive goal, Mr. Chairman, but it 
took this Governor to make it happen.
    After long controversy and stalemate, Governor Leavitt and 
I agreed that the two of us should work together to break the 
deadlock and find solutions to Utah's inholdings problem. We 
agreed that both of us stood to gain by consolidating our lands 
for better management, and that both of us would be better off 
it we spent our time and money investing in the lands and the 
people instead of litigation and lawyers. We pledged to each 
other that in negotiating this deal, we would protect the 
environment, protect the taxpayers, and make the state school 
trust whole.
    I am pleased to appear before you today, Mr. Chairman, to 
report that we have met those goals. The President's promise 
has been kept, and sooner than most would have expected. In 
fact, the Governor and I have gone well beyond that promise to 
negotiate the resolution of the difficult state trust land 
issues beyond the borders of the Grand Staircase-Escalante 
National Monument.
    Many have noted the historic dimensions associated with 
reaching this agreement. As Governor of Arizona, I helped 
engineer some big, mutually beneficial state-Federal land 
trades. But I've never done anything on this scale before. And 
as far as I know, no one else has either, at least in the lower 
48 states. Passage and enactment of this legislation would mark 
the end of six decades of controversy over the issue of Utah's 
trust land inholdings within national parks, forests, 
monuments, and reservations.
    If not historic, Mr. Chairman, I think it is at least 
notable that you and I, together with Governor Leavitt and the 
rest of the Utah Congressional delegation, joined by trust land 
administrators and environmentalists, are all in agreement on 
the resolution of a major public lands issue in your state. 
With this settlement, perhaps we have opened a positive new 
chapter in the Federal-state relationship concerning public 
land management in Utah. The scope and complexity of the 
negotiations and the agreement itself were and are enormous. 
The fact that so many had tried for so long to no avail was a 
signal to both of us that the idea of going through the 
standard administrative channels, tract by tract, was going to 
be a prescription for further delay, litigation, and expense to 
both Federal and state taxpayers.
    As a result, Governor Leavitt and I agreed that all issues 
would be on the table, and that the two of us would commit to 
negotiating a single, comprehensive, non-segmentable agreement. 
We understood that while it would be possible to argue over the 
value of individual tracts, or whether one of us got a better 
deal on one small part of the exchange, it was critically 
important that both of us be able to agree at the conclusion of 
the negotiations that both parties were treated fairly and that 
we had in fact, to the satisfaction of both, arrived at an 
equal value exchange. The negotiations were spirited, and both 
sides fought hard for their interests. In my judgment, we 
succeeded. This is a fair deal, for both sides.
    I believe that the Governor will speak to the important 
benefits in this agreement for the state trust lands 
administration and the school children of Utah. I would like to 
take a few moments to address the other two components of our 
concern, the environment and the taxpayers.
    I have three observations to make concerning the very 
important environmental considerations and understandings that 
are part of this agreement. First, the Utah State school trust 
lands in this deal include properties within the National Park 
System, the National Forest System, and the Grand Staircase-
Escalante National Monument. Because these are some of the most 
renowned lands in the United States, and because a mission of 
the state trust lands administration is to produce revenues for 
Utah's public schools, we knew that an exchange of this kind 
would resolve many of the longstanding and inherent 
environmental conflicts occurring on these public lands.
    Second, the Federal assets we made available for exchange 
with the state were selected with a great sensitivity to 
environmental concerns and a belief and expecta-

tion by both parties that the Federal assets conveyed to the 
state would be highly unlikely to trigger significant 
environmental controversy. We both agreed at the outset of 
negotiations to avoid lands where we knew of any of the 
following existed or could be reasonably foreseen: significant 
wildlife resources, endangered species habitats, significant 
archeological resources, areas of critical environmental 
concern, coal requiring surface mining, wilderness study areas, 
significant recreational areas, scenic areas, or any other 
lands known to raise significant environmental concerns of any 
kind.
    And third, we agreed that where the state obtains mineral 
interests as part of this agreement and the Federal Government 
retains the surface or other interest, any development that 
takes place will not conflict with established Federal land and 
environmental management objectives. We further agreed that any 
such development will be fully subject to all of the 
environmental regulations applying to development of non-
Federal minerals on Federal lands.
    Mr. Chairman, Governor Leavitt and I also agreed that the 
interest of the American taxpayer must be protected, and I am 
pleased to report that we have done so. This agreement was 
negotiated with the goal of producing a budget-neutral 
document, so that we could assure all Members of Congress that 
the budgets we have all worked so hard to contain would not be 
affected.
    I repeat, when all of the lands, interests, and money in 
the deal are taken into account, we have negotiated an 
approximately equal value exchange. Except for the $50 million 
cash payment, already authorized and scored under Public Law 
103-93, the remainder of the properties comprise an asset 
exchange of speculative, commercial, and conservation lands. 
Both sides fought hard for the interests of their 
constituencies, and considerable energy went into guaranteeing 
that neither side was taking advantage of the other, that each 
felt they received a fair and equal deal when negotiations had 
concluded.
    Governor Leavitt and I were not working in a vacuum. 
Through your personal leadership, and that of your predecessor, 
Mr. Vento, former Chairman Miller, and other members of this 
Committee working directly with the Utah delegation, the 
Governor and I already had the template to work from for 
dealing with the lands outside the Monument. This was Public 
Law 103-93, which had already identified many of the properties 
and the framework for carrying out such an exchange. Like 
Governor Matheson's Project BOLD, Public Law 103-93 helped 
chart the course that the two of us followed.
    I would like to similarly salute the School and 
Institutional Trust Lands Administration for developing the 
concept of a like-for-like exchange with the Federal 
Government, which helped reframe the debate over the Monument 
lands. Members of this Committee encouraged SITLA in the 
formulation of its proposal, which was widely circulated around 
the Congress, the environmental community, and the State of 
Utah. The essential elements of this agreement are contained in 
proposals and legislation that has been drafted for years; 
there is little, if anything new in the agreement.
    Building on these ideas, the Governor and I were able to 
establish a connection of mutual trust and commitment to see 
this process through and conclude the long, difficult years of 
conflict and controversy in a way that protected the interests 
of both sides and will in fact benefit both parties.
    I want you to know, Mr. Chairman, that I will stand by this 
deal. However, I must also make it clear, as I have to the 
Governor already, that Administration support is contingent on 
the passage of a clean bill, with no amendments, riders, or 
other objectionable legislation attached. While I believe this 
is a good deal for the environment, the taxpayers, and the 
school trust of Utah, I will have no hesitation about 
recommending a veto if any objectionable provisions are 
attached in this Congress.
    We negotiated to the limit of what we believe is 
acceptable, and any attempt to turn this vehicle into a 
Christmas tree for other legislation opposed by the 
Administration will result in killing this agreement. With that 
understanding, I stand ready to help however I can, Mr. 
Chairman. The President's promise to negotiate in good faith 
has been kept. It is now up to Congress to deliver the 
legislation without substantive change to the President's desk.
    This concludes my prepared statement. I would be happy to 
answer any questions the Committee may have.

    Mr. Hansen. Thank you, Mr. Secretary. What a refreshing 
statement.
    [Laughter.]
    We're happy to have with us our colleague from the Second 
District in Utah, Merrill Cook. Merrill, I'll turn the time to 
you. Pull that mike over.

 STATEMENT OF HON. MERRILL COOK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cook. Well, thank you very much, Mr. Chairman. I, too, 
want to commend you for your expedited hearing on this very 
important agreement, and I wish to add my voice to those of 
yours in complimenting Governor Leavitt and Secretary Babbitt 
on a very historic and, I think, very, very important 
agreement. I think this land swap is particularly a wonderful 
thing for the Utah school children, both the children of today 
and the children of tomorrow.
    It was a just a year ago a rather frustrated Utah 
delegation held a press conference here in Washington to 
publicly call on President Clinton to honor the promise he made 
to exchange school trust lands inside the Escalante Staircase 
Monument with lands of equal value. I joined in that press 
conference and I honestly believed it would take many years and 
much pressure before the exchange took place, but now we have a 
land swap that could over the lifetime of the deal bring a 
billion dollars to Utah's schools and school children.
    The impact of this land swap will be seen in our schools 
for decades to come. Just with the $61 million in cash alone, 
we could immediately decrease our average class size by about 
two students. And Utah, as you know, has the--currently, the 
largest class size in the country.
    This land exchange talks a lot about leases, lands, and 
mineral rights, but it's not really about those things. It's 
about quality education. It's about more teachers, smaller 
class size, more books in our library, more up-to-date 
computers. Ultimately, it's about whatever the people and the 
educators of Utah want it to be about. That's the beauty of the 
money from the school trust lands. It's our money for our 
children and we decide where to spend it, not faceless 
bureaucrats 2,000 miles away in Washington, DC.
    President Clinton grabbed national headlines earlier this 
year with his proposal for a Nationwide Class Size Reduction 
Program. The program, unfortunately for Utah, mostly favored 
northeastern cities and, ultimately, would have brought so 
little money to Utah that we couldn't even reduce our class 
size by a half a child. The funding for the program did fall 
apart it looks like with the tobacco deal, but, inadvertently, 
President Clinton through this land swap. It's helping to make 
a dramatic difference in the educational quality of our State. 
This really is our children's land. The money from this land 
blesses them in one of the most profound ways the government 
can bless children through better education.
    In closing, I just want to state in the strongest terms 
possible my hearty support for this land exchange.
    Thank you very much.
    [The prepared statement of Mr. Cook follows:]

 Statement of Hon. Merrill Cook, a Representative in Congress from the 
                             State of Utah

    Mr. Chairman, thank you for this opportunity to say a few 
words about this historic land swap between the Federal 
Government and Utah. I think this land swap is a particularly 
wonderful thing for Utah school children; both the children of 
today and the children of tomorrow.
    A year ago, a rather frustrated Utah delegation held a 
press conference here in Washington to publicly call on 
President Clinton to honor the promise he made to exchange 
school trust lands inside the Escalante Staircase Monument with 
lands of equal value. I joined in that press conference. I 
honestly believed it would take many years and more pressure 
before the exchange took place.
    But, now we have a land swap that could, over the lifetime 
of the deal, bring $1 billion to Utah's schools and school 
children.
    The impact of this land swap will be seen in our schools 
for decades to come. Just with the $61 million in cash, alone, 
we could immediately decrease our average class size by two 
students. Utah, as you know, currently has the largest class 
size in the country.
    This land exchange isn't really about leases, land and 
mineral rights. This is about quality education. It's about 
more teachers, smaller class size, more books in our libraries, 
more up-to-date computers. Ultimately, it's about whatever the 
people and educators of Utah want it to be about. That's the 
beauty of the money from the school trust lands. It's our 
money. For our children. And we decide where to spend it, not 
some faceless bureaucrats 2,000 miles away in Washington, DC.
    President Clinton grabbed national headlines earlier this 
year with his proposal for a nationwide class size reduction 
program. The program mostly favored northestern cities and 
ultimately would have brought so little money to Utah that we 
couldn't even reduce our class size by half a child.
    The funding for the program collapsed with the tobacco 
deal. But, inadvertently, President Clinton, through this land 
swap, is helping to make a dramatic difference in the 
educational quality of our state. This really is our children's 
land. The money from this land blesses them in one of the most 
profound ways a government can bless children: Through better 
education.
    In closing, I want to state in the strongest terms possible 
my hearty support for this land exchange. Thank you.

    Mr. Hansen. Thank you, Congressman Cook.
    Congressman Cannon, I guess, should be walking in and we'll 
take him when he comes.
    Our good friend and Ranking Member from America Samoa, Mr. 
Faleomavaego, is here, a misplaced Utahn anyway.
    [Laughter.]
    So we will turn to you now for any statement you may have.

STATEMENT OF HON. ENI FALEOMAVAEGA, A DELEGATE TO CONGRESS FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman, and thank you 
for calling this hearing for this very important occasion and 
certainly want to welcome our good Secretary of the Interior, 
Secretary Babbitt, and Governor Leavitt. It's always a pleasure 
to have you join our Subcommittee and our colleague, Merrill 
Cook.
    Mr. Chairman, I was very pleased to hear recently that 
Governor Leavitt and Secretary Babbitt signed an agreement on 
May 8th to provide for an exchange of lands between the State 
of Utah and the Federal Government. I know the lands involved 
have been a major source of contention for both parties. We 
have spent many hours in the Subcommittee dealing with issues 
associated with lands covered by the agreement. If this 
agreement can put the land exchange issue to rest in a fair and 
equitable manner, I'm certainly all for it.
    With the agreement only being publicly announced a little 
over a week ago, there has not been much time to study the 
agreement. I hope today's hearing can fill in the details of 
the agreement and its impact. And I certainly want to commend 
Governor Leavitt and Secretary Babbitt for their outstanding 
work and leadership in bringing this legislation to the 
forefront. For far too long, this issue has frustrated 
efficient land management, sapped the people's energy, and 
denied benefits to the Utah School Trust and our country.
    These two gentlemen, with the support of many others, 
recognize the current situation was doing nothing for the 
people or the resources. In paraphrasing former Governor 
Matheson, they have taken a bold step in resolving this long-
festering issue. I certainly want to thank both gentlemen for 
their testimony this morning and I sincerely hope that we will 
definitely expedite this piece of legislation.
    Mr. Hansen. Does the gentleman have any questions at this 
time?
    Mr. Faleomavaega. Mr. Chairman, I do. Mr. Hinchey would 
like to be here, but because of his other commitments he has to 
attend, I would like to ask unanimous consent for his statement 
from the gentleman be made a part of the record.
    Mr. Hansen. Without objection, so ordered.
    Mr. Faleomavaega. Governor, if I may ask you--why have the 
questions of value been so difficult in the past and how are 
you and Secretary able to overcome these horrendous problems?
    Governor Leavitt. The question of what value land holds, 
obviously, is a tricky one under any circumstance. We've been 
able to overcome it in this case because we've, basically, been 
able to trade land for land and resource for resource. The 
cash, obviously, has become part of the deal, but by going to 
land for land, mineral for mineral it's made it easier. And I 
think the other thing is that we decided it's time to agree, to 
come to a conclusion. There's been lots of dynamics that have 
encompassed this process for the last seventy years. The time 
is now to resolve it and we've been able to meet what I think 
to be a very fair and equitable settlement.
    Mr. Hansen. One of the biggest problems we've ever had on 
this Committee the whole 18 years I've been on it is land 
values. It's just so difficult to determine what values are, 
and I commend both you and the Secretary for doing this. How's 
this been accepted by other elected officials in the State of 
Utah?
    Governor Leavitt. I think you will find today that the 
Association of Counties will speak for themselves, but they 
have passed resolutions in support of this. There has been a 
strong support by our school community and by those in our 
State legislature. There will be others who will be able to 
speak on that today, but I think you will find there is very 
strong support for this agreement throughout our State.
    Mr. Hansen. How about your elected legislative leaders, 
your Speaker and your President of the Senate? How are they 
looking at this or have they made a determination of it yet?
    Governor Leavitt. The President of the Senate has spoken to 
me on his support. I've not had a chance to speak with the 
Speaker about it. I've seen him publicly indicating he's 
anxious to have more details, but optimistic about the fact 
that it's been resolved.
    Mr. Hansen. You know around here we're very skeptical. We 
always see a good deal start out and then we get blindsided 
somewhere. I have great feelings for Steve Young as I watch him 
play football because he just has a great pass and he gets 
blindsided and smeared. And when I was first here, I didn't 
believe that happened, but it happens on a regular basis as 
you've seen.
    Mr. Secretary where will the $50 million come from? Will 
OMB go along with this payment?
    Secretary Babbitt. Mr. Chairman, the answer is yes. The 
origins of the $50 million are, of course, in Public Law 103-93 
where the legislation itself contemplated $50 million in a form 
of a royalty stream, and it was scored at that time. So, it is 
our judgment that this will be pay-go neutral, and I believe 
that with a little pushing and shoving, and tugging and 
hauling, that OMB will support this legislation and render that 
opinion.
    Mr. Hansen. I'm looking forward to the pushing and shoving 
part, Mr. Secretary, that I'm sure you're very able at doing, 
as I've seen you in the past.
    Mr. Secretary, in all, this is a landmark piece of 
legislation, and we, of course, commend both you and the 
Governor for the excellent work that you've done, but there are 
other people in Utah that have done some awfully good work down 
in the San Rafael Swell area. I think that the county 
commissioners and many, many people for many years in that area 
have worked very diligently to come up with really an excellent 
piece of legislation which would again resolve another part of 
the puzzle that we have with problems between the Federal and 
the State, and the State of Utah.
    In markup in that bill, we took out, in my mind, most of 
the objectionable parts that the Department of Interior came up 
to testify on. Mr. Pat Shea came up and made some objections 
which I think we able to overcome. And then also Mr. Hinchey 
came up with four amendments, and other than the Utah water 
law, I think we resolved all those. And I'm sure that they 
would not expect us to change Utah water law around. You know 
the problem we get in there wouldn't be a lot bigger than 
anything we're looking at here. So, I would really appreciate 
it if you'd give some thought to that bill. Another good step 
forward, another well-thought-out piece of legislation and help 
us out if you could.
    And also within the monument, there's the little towns of 
Tropic and Cannonville who have got some horrendous problems 
just on very minor things, 12 acres here, 13 acres there. That 
bill will be introduced, I hope by one of my colleagues, by the 
end of this week. If they don't get it introduced by the end of 
this week, I don't think it's got a chance, but time is running 
out fast on us. I would hope you would give some thought to 
looking at those two pieces of legislation and give it the same 
thoughtful consideration you've given this one. I'd be very 
appreciative if you would.
    Secretary Babbitt. Mr. Chairman, just briefly a couple of 
thoughts.
    We're certainly prepared on this Escalante Boundary issues 
to get down and see if we can work those out. The 
administration at this point does not support the San Rafael 
legislation. If there's one thing I've learned in this process, 
it is that if we keep talking, you know, there are ways to find 
common ground.
    The Governor and I have been talking, talking, talking for 
6 years about exchanges, about wilderness and I think that this 
product today is largely a result of our ability to 
communicate, and I'm certainly pledged to do that because I 
recognize from the Fed-

eral perspective the benefits that these agreements can bring. 
We've talked about the benefits to Utah. I would simply 
reiterate that we are clearing out with this deal in holdings 
in two national parks, Arches and Capital Reef, Dinosaur 
National Monument, Glen Canyon National Recreation Area, 
Flaming Gorge, a whole flock of national forests, Wasatch, 
Sawtooth, Ashley, Caribou, Uintah, Manti-La Sal, Fishlake, and 
Dixie. So, there are manifest benefits on both sides and I say 
that by way of underlining my willingness to continue working 
these issues. If we don't succeed at first, that's all the more 
reason to keep trying.
    Mr. Hansen. And I couldn't agree more. I think that's very 
important. You may recall when the two of us were in the Oval 
Office a year or so ago, and the President signed the bill. It 
had over 110 titles in it. Most of those, the administration 
opposed before this Committee, and we did work most of those 
out.
    Secretary Babbitt. Mr. Chairman, I would only add that my 
participation in this dialogue is contingent upon your leading 
me in Utah in search of the Bonneville cutthroat trout this 
summer.
    [Laughter.]
    Mr. Hansen. Mr. Secretary, I was going to comment on that, 
and I was going to take you to a place where there's so many 
Bonneville Cutthroat you would wonder why you even considered 
it endangered and I'm sure you would enjoy some very great 
times flyfishing up there. In fact, the fishing is so good that 
you have to stand behind a tree to tie on your fly.
    [Laughter.]
    Secretary Babbitt. I'm coming to see it.
    Mr. Hansen. I'm looking forward to taking you there.
    The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    As a matter of observation, Secretary Babbitt and Governor 
Leavitt, how is it that after some 20 years that both of you 
gentlemen are able to resolve one of the most contentious 
issues that Utah has faced? Is it because you have some 
fraternal brotherhood of being former Governor and Governor 
Leavitt?
    Secretary Babbitt. Congressman, I don't want to compromise 
his reputation by acknowledging such a relationship, but it's 
true.
    [Laughter.]
    Mr. Faleomavaega. Is there any particular area or provision 
of the bill, both Secretary Babbitt, Governor Leavitt, and 
Congressman Cook that you feel that we ought to look at it 
closely? Some objections from anybody on this Subcommittee that 
we ought to look into or do you feel very comfortable that the 
provisions of the bill are quite well in compliance with NEPA 
and other Federal acts?
    Governor Leavitt. Congressman, this bill was hard 
negotiated over several months. It became clear to both of us 
that the first and most important requirement to coming to an 
agreement was to agree that we were going to find a solution to 
push beyond the boundaries of what had been previously been an 
obstacle. You will find here compromises on both sides. You 
will hear this bill, I suspect before it's over and as the 
Congressman suggested, criticized from both sides. There will 
be those who say it was unfair on the part of the Federal 
Government and unfair on the part of local gov-

ernment. That is the makings, I think, of a fair exchange. We 
have approached it on a land-for-land, mineral-for-mineral 
basis. For the most part, I think that was the key and I do 
believe that there has been the fact that we have worked over a 
period of time to establish an atmosphere for decisionmaking 
that has been successful.
    Mr. Faleomavaega. Has the----
    Secretary Babbitt. Congressman, if I may? I would add only 
two things. I think there's a danger here of beginning--of 
stepping into the bill to kind of pick at specific provisions 
and say that ``X'' is not exactly equal to ``Y,'' because as 
the Governor explained the valuation approach in this really 
integrates upward to the total benefits on both sides.
    The second, if I may--danger here is that there will be 
riders offered throughout the process, and this bill will 
emerge draped with provisions designed to provoke a 
Presidential veto which would be a great tragedy. And my only 
hope would be that we can keep this package together, keep it 
clean free of riders, and get it done.
    Mr. Faleomavaega. Mr. Secretary, you certainly make a very 
keen observation about the realities of the politics here. When 
a member sees a bill that is almost for sure that it's going to 
be signed by the President, not necessarily by this side, the 
other body also has those temptations, and putting riders on 
things that are totally unrelated to the bill at hand. So, I do 
appreciate your observation.
    Governor Leavitt has the State legislature of Utah passed 
any resolution or petition or anything in support of this 
legislation?
    Governor Leavitt. Our State legislature is not currently in 
session, therefore would not be able to--there have been many 
calls on behalf of our legislature and other bodies in our 
State for this transaction to occur, but there is no means nor 
is it necessary for our legislature to bless this directly. We 
formed with our School Institutional and Trust Lands a Board 
that has been delegated full responsibility to optimize the use 
of the lands for the benefit of school children. They passed 
support. They have approved it five-to-one with great 
enthusiasm and a meeting on the 14th. That's the only formal 
approval that's necessary.
    Mr. Faleomavaega. It seems to me, Mr. Chairman, that on 
contentious issues that the Honorable Secretary has personally 
taken a hand in negotiating issues of this nature that maybe we 
ought to have him negotiate all other contentious issues that 
come before this Subcommittee and maybe we could on a very 
good, strong bipartisan basis resolve some of these 
objectionable stuff that comes before the Subcommittee. But, I 
certainly want to commend both the Governor and the Secretary, 
and Merrill, it's always a welcome sight to have you also 
testify in the Committee.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    The gentlelady from the Virgin Islands.
    Ms. Christian-Green. Thank you, Mr. Chair. I'd just like to 
welcome our distinguished panel, but I have no questions.
    Mr. Hansen. Thank you very much. We appreciate the 
Secretary, the Governor. Thanks for being here.
    Congressman Cook you're welcome to join us on the dais if 
you're so inclined. I appreciate your presence with us.
    Thanks so much.
    Our next panel will be Randy Johnson, Chairman of the Emery 
County Commission, and Joe Judd, Kane County Commissioner. If 
these two commissioners, would come up we'd appreciate it.
    Commissioner Johnson, we'll start with you, sir.

   STATEMENT OF RANDY JOHNSON, CHAIRMAN OF THE EMERY COUNTY 
                           COMMISSION

    Mr. Johnson. Thank you, Mr. Chairman. It's so nice to be 
back again so quickly. I appreciate the opportunity to testify 
today. I speak on behalf of the Utah Association of Counties as 
Chair of the Utah Association of Counties Public Land Oversight 
Committee.
    I'd like to commend Governor Leavitt and congratulate all 
of those who have worked so hard for so long to remain focused 
on resolution of this longstanding problem. I would like also 
to emphasize to you that this is truly a great thing for the 
school children of Utah, especially in light of the fact that 
we have been trying to get some value out of these captured 
land sections for over 60 years.
    The counties of Utah are pleased to have played a role this 
exchange process. Utah Association of Counties involvement in 
these tradeout efforts has been as a result of our constant 
exposure to public lands' issues which impact our lives. In 
combination with our desire to cooperate with State 
Institutional Trust Lands in bringing about what is in the best 
interest of the children that they represent.
    All too often environmental issues override the day-to-day 
human aspect of our public lands and cause us to disregard the 
fact that everything we need to survive and prosper as a human 
family comes from the land. To finally have some ability to 
enhance the education and, thus, the future of the children of 
Utah through the proper use of some of these lands is truly 
significant. It's also very significant that a cooperative 
effort has led to resolution of a longstanding problem. This is 
something which is very difficult to achieve in public lands 
matters today.
    UAC's involvement with this particular exchange is a result 
of our partnership with SITLA in opposing, in the courts, the 
creation of the Grand Staircase-Escalante National Monument. It 
is from that perspective that I both support this legislation 
and also voice my concern regarding the issues surrounding this 
exchange.
    UAC joined SITLA in filing suit on the monument based on 
what we believe was an improper lack of process and public 
involvement as required by law. It is important to note that 
nothing in this exchange addresses the points of law over which 
UAC filed suit. It does, however, address the concerns over 
which SITLA joined our efforts and we are happy that SITLA has 
succeeded in gaining some compensation for their losses. We 
support this exchange for that reason, but while the exchange 
benefits SITLA substantially, it in no way compensates for the 
huge loss in future revenues which exist from existing mineral 
leases within the monument.
    Further, the county's impacted most directly by the 
monument's creation, Garfield and Kane, gained very little 
benefit from this tradeout. UAC has expressed concern over a 
number of issues which we have noted in my written testimony 
and I will draw your attention to those. While concerns over 
these matters will, certainly, not cause us to oppose this 
proposal, we do want these issues in the record and part of the 
process that implements the provisions of this legislation.
    We would like to emphasize at this point that SITLA has 
worked very hard to address to our satisfaction any concerns we 
have raised with them and we ask that you would work to 
maintain the protections in the legislative process. It is 
important to note here that the public mandates, and therefore 
the priorities, of Utah's counties and SITLA are different in 
many ways. Consequently, this exchange must be viewed as a 
substantial success as it relates to SITLA's prescribed 
priority as trustees of those lands set aside that assist in 
the education of Utah's school children. With these concerns so 
addressed, we support legislation which would allow this 
exchange to succeed. We cannot emphasize enough the benefit it 
would provide for the school children of Utah.
    In conclusion, Mr. Babbitt has said in his testimony and in 
his written testimony I quote ``with this settlement, perhaps 
we have opened a positive new chapter in the Federal-State 
relationship concerning public land management in Utah.'' Utah 
Association of Counties would be even more enthusiastic in our 
support if we knew that this exchange would indeed set the 
stage for a more cooperative atmosphere in public lands 
matters; that it would set a precedent for future successful 
tradeouts of captured State trust lands in other areas; and 
that it would open the door to resolution-oriented negotiations 
on all contentious public lands' issues in the future. We hope 
that it does exactly that.
    Thank you very much.
    Mr. Hansen. Thank you, Commissioner.
    Commissioner Judd.
    [The prepared statement of Mr. Johnson may be found at end 
of hearing.]

        STATEMENT OF JOE JUDD, KANE COUNTY COMMISSIONER

    Mr. Judd. Good morning, Mr. Chairman, and members of the 
Subcommittee. I'd like to express my great appreciation to you 
and, especially, to the staff that has been so cooperative in 
making this opportunity to approach you in an otherwise 
difficult situation almost pleasurable.
    I wish to address you on behalf of the Commissioner of Kane 
County for allowing me to testify and the bill will provide an 
Exchange Lands within the State of Utah. Let me begin by saying 
that we had some reservations when we heard that this had 
occurred. We had concerns about mineral interests, grazing 
rights, access, water, and PILT payments. All of those, 
apparently, have been addressed successfully within the 
compromise of the bill. We would like to also tell you that the 
exchange in effect will allow the transfer of mineral rights.
    Let me begin by saying that we in no way wish to interfere 
with the agreement that has been negotiated between the State 
of Utah and the Department of Interior, but at the same time we 
would like to address what we believe is an omission of Kane 
County and positive consequences of the exchange.
    The exchange, in effect, transfers the value of mineral and 
energy resources out of Kane County into other areas of the 
State. These are values that were critical to the future 
development of the economy, the communities, especially Kane 
County. In return, we are faced with costs and responsibilities 
related to Grand Staircase-Escalante National Monument. 
Although we have an interest in tourism, we are being asked to 
trade high income, primary income jobs, wage earners into a 
low-paying second income job and end the tourist industry. And 
still we have been looking forward with resignation trying to 
do the best we can with the cards we've been dealt.
    Mr. Chairman, I think the disparity should be more than 
obvious to everyone. It is our understanding that there will be 
royalties paid from resources of the development on BLM lands 
in some of the exchange areas. One-half of that royalty will be 
going to the State of Utah. The other half going to the Federal 
Treasury. It is our proposal that a significant portion of the 
Federal share go to the protection of monument resources and 
the mitigation of monument impacts on Kane County and local 
governments.
    We believe that this can be implemented legislatively and 
not affect the negotiated agreement. The Federal royalties 
could be deposited in a fund for the county. A mechanism could 
be developed for the release of these funds based on criteria 
and factors spelled out in a bill or developed within the 
Department of Interior.
    The Secretary has recognized the appropriateness of the 
utility of the county's role as has the Congress through 
appropriations. The fund would decrease the dependency for 
annual appropriations. Incidentally, I'm not here today 
representing Garfield County, but they may have a similar 
concern and may wish to participate in share of the fund. If 
that's the case, I'm sure that some fair and proportional 
formula can be devised.
    We do not have specific language to offer at this time, but 
if the Committee is receptive to the general proposal, we'd be 
happy to develop language with the Committee.
    Thank you again very much for allowing me to come and to 
represent my county, and I'll answer questions if I may?
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Judd may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Commissioner Judd.
    The gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I want to thank both 
gentlemen for their testimonies. I have no questions.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Ms. Christian-Green. Same. I just want to thank you for 
coming and giving your testimony. I have no questions, either, 
Mr. Chairman.
    Mr. Hansen. I recognize our colleague from the Second 
District of Utah.
    Mr. Cook. Thank you. I certainly appreciate the testimony.
    I would just like to ask the commissioners what they could 
identify in this bill, or in the process leading up to it, that 
might be useful for the Resources Committee and those of us in 
Congress and the administration in trying to achieve closure on 
one of the most difficult question and that's the overall 
wilderness issue in the State of Utah? Is this a potential 
opening to finding a formula that might be satisfactory both in 
terms of a reasonable setaside and preservation of jobs and 
economic development? Do you see anything in here that might--
--
    Mr. Johnson. Well, Congressman, as you are aware, Emery 
County has a bill that is now in committee. It has been passed 
out of the subcommittee, that we feel is a bill that addresses 
all concerns of all interested parties on public lands' issues 
which include wilderness and everything from that point outward 
that we think has a very good chance of bringing people to a 
different perspective on the public lands' management issues.
    And I think that something that Mr. Babbitt said here today 
is the bottom line of how that may be achieved. He said we 
simply decided to agree to agree, and I think that's what 
happened in this exchange. They decided to agree to agree, and 
I think that if we could have that attitude between the State 
and Federal Government as we perceive now along some hybrid 
forms of management that perhaps take in all the interests of 
all different stakeholders in a better way than we've done in 
the past, we could succeed in bringing to resolution many of 
these longstanding and contentious issues. And I hope it does 
set a precedent if that's--you know, that's the second part of 
your question. I certainly do hope it sets a precedent for 
that.
    Mr. Judd. Congressman, if I might address this--we in Kane 
County have tried as best we can. We're a small, ineffective 
county. We don't have a lot of resources and so we have to do 
the best we can with what we've got. We've tried as best we can 
to become a real true partner in every sense of the word with 
the Department of Interior. We've had great treatment working 
with Jerry Meredith and Susan Reef, and now Monica Makusic and 
her staff; Albert Worth, and Williams, and Jeff Webb, and all 
the people that are over there to Secretary Babbitt himself.
    We've tried as a partner to arrive at agreements that might 
be advantageous to both. I think that what has been tried in 
the past, obviously, has not worked. We need to be a little 
more creative. We need to drop the barriers that have always 
been there, that have apparently satisfied constituents on both 
sides of the House. And get away from that and try to approach 
the problem, much as Commissioner Johnson has done here in his 
testimony this morning, talking to his bill that's there before 
the House. I think that's a very creative attitude and really 
needs to be lauded.
    There are many ways to do this, but they're not going to 
happen unless we--as Secretary Babbitt said this morning, and 
he and Governor Leavitt--at least they talked. And, I believe 
if we could drop our animosities and look forward to solving 
the problem, there's a lot of things that can occur.
    Thank you.
    Mr. Hansen. Commissioner Judd, what would it have meant to 
Kane County if Smoky Hollow had been developed?
    Mr. Judd. Oh, Congressman, how much time do we have?
    Mr. Hansen. Not very much.
    [Laughter.]
    Mr. Judd. Not very much. I know that. If you can picture 
when they closed the saw mill, 700 jobs went away. When they 
closed the uranium mines down in the strip, 250 jobs went away. 
And in our little county, it isn't like Hill Air Force Base 
where you've got thousands of employment, but this would have 
provided 900 jobs at least. And all the fallout goodies that 
would have come from it; people who work on the truck; and 
people who supply the pancakes on Saturday morning; and all 
those goodies, and I'd look forward to the opportunity to 
follow behind a shopping cart with a housewife and watch her 
fill the cart with food for her family. Now I know that sounds 
kind of schmaltzy, but, as a Commissioner, that's what I was 
really looking forward to, and I was not going to address her 
or anybody else.
    I was just going to take great pride and watch that cart 
begin to fill up and feed kids. That's really what it's about. 
The things that would've occurred for our county, at least I 
feel in my opinion, would have been a great advantage with very 
little risks.
    Mr. Hansen. Do you think it could have been done in an 
environmentally sound way?
    Mr. Judd. I believe, if the Environmental Impact Statement 
that the Department of Interior had been working on for a long 
time would had been allowed to reach the light to day, it would 
have said just that. Yes, I do.
    Mr. Hansen. So, in your opinion--what would you say, 900 
jobs?
    Mr. Judd. Nine hundred jobs at least. That's for the first 
phase, Congressman, just the first phase.
    Mr. Hansen. How long do you think that would have 
continued?
    Mr. Judd. Well, long beyond our lifetimes. I'm sure. When I 
talked to Dave Shaver and those who were working on providing 
the Mining Statement, they've talked about a hundred years.
    Mr. Hansen. Commissioner Johnson, I hope everybody realizes 
support of local government is critical in the passage of this 
legislation and this Committee puts great precedence and 
feelings, and we have--as long as I've been here, on how local 
government looks as this.
    By your statement, apparently they felt pretty good about 
it. Do you see a lot of--any dissenting feelings in here or do 
you feel this is smooth sailing? Give me your assessment of 
that.
    Mr. Johnson. Congressman, as I said, I think that 
dissention opinions would come from any feeling that we were 
not protecting those issues such as mineral lease payments, 
PILT payments, and so forth in the manner in which SITLA has 
agreed to pay them that holds the counties harmless as these 
things are exchanged. In other words, mineral leases that we 
are now receiving or that we may receive in the future need to 
remain the same after these tradeouts as they would have been, 
you know, without the tradeouts. If these things are 
consistently addressed in the legislation and hailed in that 
form, I think the support would remain and would be consistent 
there. If we see that changing to where we lose mineral lease; 
we lose PILT, we lose some of these other things that we so 
rely on, then we would have deep concerns about this exchange.
    Mr. Hansen. Well, let's get into the problem. Some people 
benefit, as your county will. Some people get hurt, as 
apparently Gar-

field County will, maybe Kane County and others. It's hard to 
come at an equity in these things. It's very difficult.
    Mr. Johnson. It is. Now, I have to say that I think, 
probably, no body is hurt. I wouldn't address it that way. Some 
don't gain, and like Kane and Garfield, you have by virtue of 
the monument resources that are locked in there. But, they're 
locked in there by the monument itself, you know, at this 
point. So, to say that they're hurt by this process, I don't 
think would be appropriate. I think some don't gain, and others 
do.
    But, I'd also would like to point out to you the other side 
of the gain issue. In Emery County, for example, where we 
frequently are looked upon as the place to jump with leases 
because of environmental problems in other areas, our what--
when I started as the commissioner, there was a 100 years' 
supply of coal. There's now a 20 years' supply of coal. Now 
what does Emery County do in 20 years when those coal reserves 
that are now being actively pursued by all of this action are 
gone, and we have to completely change the economy that we now 
depend upon? So there are other, you know, outside issues that 
you don't even recognize, but in general, I would tell you that 
our support is there for this exchange on behalf of SITLA.
    Mr. Hansen. You may have noticed that I mentioned to 
Secretary Babbitt about the bill that Emery County has been 
pushing and has now been passed by the Subcommittee and it's on 
its way to Full Committee. We had asked the Secretary to supply 
us with some folks to come up and discuss it. At the hearing, 
we thought that was going to happen, but apparently they 
decided not to.
    As you know, we have substantially watered down that bill, 
and in my mind, removed the objections that the administration 
really should have. Also, Mr. Hinchey, who had four amendments, 
I think basically, three of those were pretty well resolved. 
The only thing that, of course, we would lock into would be 
that we're not going to try messing around with the Law of the 
River and State Water law, and the upper and lower basin 
compact in a bill of this nature.
    I would ask you if you could feel it in your--had the time 
to do it, that you talk to the administration. Explain to them 
these things as we're trying to do also, so that they 
understand the value in this piece of legislation which to me 
has turned into pretty innocuous, but a good piece of 
legislation for the State of Utah and should be on a fast track 
also.
    Mr. Johnson. I agree, sir, and we've certainly would make 
every effort to do that. Emery County has tried to address all 
the concerns that have been raised since this bill has moved 
along, and I think we've done that to a very large degree. And 
I think again, here it's just a matter of sitting across the 
table and looking at these things. Some of the concerns raised 
over roads and Heritage Area management are really non-issues 
when we get--sit down at the table and see what Emery County is 
already done to address these things. So, I----
    Mr. Hansen. Like the Secretary said, you've got to keep 
talking.
    Mr. Johnson. Yes.
    Mr. Hansen. We'll try to do the same thing, but we have a 
rather full platter at this time.
    The gentleman from Michigan. We have two commissioners from 
Utah here on this Land Exchange bill. We also appreciate our 
friend from Michigan, Mr. Kildee. Any statement?
    Mr. Kildee. I have no statement at this time, Mr. Chairman. 
Thank you very much for having the hearing.
    Mr. Hansen. The gentleman from California, any questions?
    [Laughter.]
    Mr. Gallegly. Mr. Chairman, thanks for calling the meeting. 
I have no opening statement.
    Mr. Hansen. Thank you. I appreciate the commissioner being 
here and will excuse you from the table at this time.
    We'll turn to our next panel. Mr. David Terry, Director of 
Schools in the Institutional Trust Land Administration, Dr. 
Scott Bean, State Superintendent of Public Construction, and 
Paula Williams-Plant, Legislative Vice President, Utah PTA.
    We'll start on this end. Paula Williams-Plant, we'll here 
from you.

 STATEMENT OF PAULA PLANT, LEGISLATIVE VICE PRESIDENT, UTAH PTA

    Ms. Williams-Plant. My name is Paula Plant. Thank you, 
Chairman and the Committee, for the opportunity of being here 
with you today and to be able to speak on behalf of Utah's 
school children. I am the legislative vice president for Utah 
PTA, and I have been involved with trust land issues for about 
7 years.
    Education is one of the highest priorities for Utahns. We 
tend to be leaders in performance in education; yet, we spend 
less per pupil to educate our children than any other State in 
the Nation. Our dedication to education is demonstrated by the 
State budget. We spend more percentage-wise to educate our 
children than any other State. Half of the annual budget goes 
to support public education. It is, however, difficult in our 
State to generate adequate revenues from property taxes because 
only 21 percent of the State is privately held; 68 percent of 
the State belongs to the Federal Government; 7 percent is held 
in a trust for the school children.
    We experience the same difficulties in our State that many 
of you do. We have large class sizes. They are the largest in 
the Nation. We have children who attend class in trailers and 
on all kinds of rotating schedules, to be able to accommodate 
growing populations of children that are larger than the 
schools were built to hold. In every secondary school in our 
State, fees for textbooks and classroom supplies are passed on 
to parents for their responsibility.
    Our difficulties are magnified because of the inadequate 
revenues that property taxes are able to provide. In Utah we 
have to stretch dollars to meet the needs of our school 
children.
    Utah PTA became involved in reforming the management of the 
trust lands about a decade ago. We lobbied for the Act of 1994 
which created the School and Institutional Trust Lands 
Administration. It's a new independent agency, with the 
responsibility of managing the trust solely for the benefit of 
the beneficiaries. The primary beneficiaries are the school 
children of our State. We are immensely pleased with the 
progress that has been made over the past 4 years. We believe 
that they are doing a great job, and we believe that their 
independence is a key factor in that progress.
    We have been able to watch the revenues increase every 
single year. The lands are now managed effectively and 
efficiently, and for the sole benefit of the beneficiaries.
    Utah PTA has been, and continues to be, the watchdog over 
the children's trust. We watch closely the activities of the 
new agency and the board of trustees, and we are in close 
communication with other education groups in our State through 
the Utah Public Education Coalition. We have worked together in 
the past on education issues and on trust lands issues.
    The announcement of the signing between Secretary Babbitt 
and the Governor met with enthusiasm at our meeting last week. 
It is important to every group in that coalition that everyone 
who is associated with the trust meets their fiduciary 
responsibility to the children.
    Over the past couple of years we have worked very 
diligently to try to see that the children in our State are 
fairly compensated for the land in the National Monument and 
have worked for many years toward a trade out of other Federal 
designations. We understand the value of the lands that are to 
be traded. We also understand that much of it is speculative so 
far as the mineral estate is concerned.
    We recognize that this is just a first step and urge you to 
do what you can to see that this legislation passes. We also 
recognize that there is a social value associated with solitude 
and parks, and we are most pleased to be able to offer this 
treasure to the United States. This bill will protect both 
treasures--our school children and our parks.
    We have worked with our State to see that they fill their 
fiduciary responsibility to the children. This is the 
opportunity for the Federal Government to fulfill theirs. It 
was, after all, the Federal Government that granted the trust 
lands in the first place, and as grantor of the trust, they 
have a responsibility to see that the school trust lands are 
used to support public schools. This legislation will allow the 
trust to accomplish that purpose.
    Thank you.
    [The prepared statement of Ms. Plant may be found at end of 
hearing.]
    Mr. Gallegly. [presiding] Thank you very much, Dr. Plant.
    At this time we will yield to Dr. Scott Bean, the State 
superintendent of public education. Dr. Bean.

    STATEMENT OF SCOTT BEAN, STATE SUPERINTENDENT OF PUBLIC 
                          CONSTRUCTION

    Mr. Bean. Thank you, Mr. Chairman. Members of the 
Subcommittee, thank you for the opportunity to speak today in 
favor of the exchange of school and Federal assets, as provided 
in H.R. 3830. Under the agreement signed by Governor Leavitt 
and Secretary Babbitt, clear benefits accrue to both the school 
children of Utah and the American people, as provisions of this 
bill are enacted.
    During most of the years since statehood, some Utah school 
lands have been captured within national parks, Native American 
reservations, and national forests without compensation. They 
have provided no support for our schools and our children. For 
three generations this abuse of trust has prevailed. There has 
been neither political will to exchange the lands nor 
compensation for their use.
    These captured lands have pitted education against the 
environmental community and Federal employees against State 
employees, while still leaving the issue of compensation to our 
schools unresolved. Utah schools have been placed in the 
untenable and unpopular position of developing within national 
parks or remaining uncompensated. We chose the higher ground. 
Utah school children have gone without some needed books and 
other items while supporting national parks for the enjoyment 
of the Nation.
    Before you today is a proposal to resolve these contentious 
land issues satisfactorily for both Utah schools and the 
Nation. Now is the time for resolution. This bill will 
relinquish surface and mineral title to almost 376,000 acres of 
school lands captured within various Federal designations. Our 
schools will receive approximately 130,000 acres. We 
acknowledge that the Federal Government will have a net gain of 
approximately .25 million acres. We recognize the concern that 
some may have over this significant increase in Federal 
ownership in a State where the Federal Government controls over 
two-thirds of the land.
    To modify this exchange in any way will disturb the balance 
that has been negotiated. We believe that the Utah School and 
Institutional Trust Lands Administration, acting on behalf of 
the children, has developed a proposal that will compensate us 
at an acceptable level. We believe that the Department of 
Interior has negotiated a proposal that is fair to the Federal 
Treasury and Federal lands.
    Therefore, speaking for Utah schools, I assert that now is 
the time for resolution, using the presently negotiated 
agreement. As State Superintendent of Public Instruction, I 
would like to emphasize the following aspects of the proposed 
exchange:

          First, Utah schools are relinquishing to the Federal 
        Government all rights to the Nation's largest untapped 
        energy resource in the Kaipairowits Coal Basin.
          Second, the proposed exchange is beneficial to the 
        Federal Government, especially as compared to other 
        recently proposed exchanges involving sensitive natural 
        resources desired for protection by the Federal 
        Government.
          Third, following this exchange, the Federal 
        Government will have the opportunity to comprehensively 
        manage national parks and monuments in Utah.
          Fourth, all of the school lands proposed for 
        acquisition are in areas designated for surface and 
        mineral development, thus avoiding environmentally 
        protected areas.
        Fifth, the education community, as the beneficiary of 
        the school trust lands, offers its firm support for 
        this agreement.
        And, finally, our support for this proposal is 
        predicated upon the Federal Government's and the 
        environmental community's assurance that all mineral 
        and surface resources acquired in this exchange can be 
        fully and expeditiously developed with governmental and 
        environmental support. We will follow the details of 
        this exchange.
    Education would like to commend the entire Utah delegation, 
and especially you, Mr. Chairman; also, the Utah School and 
Insti-

tutional Trust Lands Administration, and, finally, Governor 
Leavitt and Secretary Babbitt for their leadership and courage 
in developing this exchange and in resolving these 
controversial issues.
    We strongly support the finality of the proposed exchange. 
The Utah education community has not been well-served by the 
expectation of past exchanges that have been frustrated by 
politics and disagreement over valuation. If this exchange 
takes place as proposed, it will resolve the longstanding 
tension among educators, State and Federal agencies, 
environmental interests, and will allow Utahns to work together 
toward prosperity, economic health, and adequate funding for 
education in the next century.
    Furthermore, this proposed exchange will allow all 
Americans to appreciate and enjoy the beauties of our State 
without compromising the education of Utah's children.
    Thank you.
    [The prepared statement of Mr. Bean may be found at end of 
hearing.]
    Mr. Hansen. [presiding] Thank you, Dr. Bean.
    I'd like to point out for the members of the Committee that 
we have with us Andy Mitchell, Canadian Secretary of State for 
National Parks. We're grateful that you could be with us, and 
we welcome you to join us, if you would like to sit upon the 
dais, or whatever you would like to do. We appreciate your 
being with us.
    I will now turn to Mr. David Terry.

 STATEMENT OF DAVID TERRY, DIRECTOR OF SCHOOLS, INSTITUTIONAL 
                   TRUST LAND ADMINISTRATION

    Mr. Terry. Thank you, Mr. Chairman, for the opportunity to 
testify today. I am David Terry. I'm the director of the School 
and Institutional Trust Lands Administration for the State of 
Utah.
    As Ms. Plant referred to us, we were created in 1994 as an 
independent agency of the Utah State government for the purpose 
of managing trust lands for the benefit of education and other 
public institutions. These lands were granted to us at 
statehood, similar to grants made to other States for 
educational trusts.
    I'm pleased to express my unconditional support for H.R. 
3830. The May 8th, 1998 agreement between the Secretary and the 
Governor is truly historic. Many of our predecessors had worked 
on this problem.
    Before you I believe you have three maps, letter-size maps. 
The top map illustrates the situation of the trust lands within 
Utah at the time of the grant at statehood, but Congress had no 
idea of the value or potential for value of lands within the 
State of Utah, and they made the grant in a four-section-per-
township grant across the entire State. That accounts for the 
scattered nature of our ownership, which is all of the blue 
lands. The yellow lands are Bureau of Land Management-
controlled lands. So you can see that we are partners with the 
United States in the management of the lands within our State.
    The second map that you have--or I should say, on that 
first map as well, you'll notice some darker magenta colors. 
Those are the national parks. Arches National Park and Capital 
Reef National Park have trust lands within those two national 
parks, and that's the issue that's been going on for some 50 or 
60 years--as to how to manage those lands within the national 
treasures.
    On the second map, you'll see enumerated the description of 
the lands that are involved within H.R. 3830. At the north end 
of the map, the Beaver Mountain Ski Resort is land that would 
come to the State of Utah from the United States. Immediately 
adjacent to that is some State land that would go to the 
national forests. But we'll also pick up Uintah County, the 
Blue Mountain telecommunications site, some tarsands properties 
along Asphalt Ridge, some oil and gas properties in Duchesne 
County, and additional tarsands properties in Uintah County; 
coal properties in the Westridge Coal Tract. All of the 
magenta-colored tracts, we will acquire surface and mineral 
estate. On the dark blue tracts, the Dugout Canyon, Mill Fork, 
Cottonwood, North Horn, and Muddy Track, we will only acquire 
the minerals estate, and we will be able to mine the coal. In 
Millard County, we'll acquire a limestone property, and then 
we'll acquire surface tracts at Hatch and Garfield County, at 
Warner Valley and Washington County, and the Big Water Tract, 
about 35,000 acres, in Kane County.
    The lands that we're giving up are also illustrated here. 
Within the National Monument, the school sections have been 
changed from blue to more of a red color, and all of those 
lands will be deeded to the United States, along with the lands 
in the Navajo Reservation, the Glen Canyon National Recreation 
Area, Capital Reef National Park, Arches National Park, 
Dinosaur National Monument, Flaming Gorge Recreation Area, 
national forest lands, and the Goshute Reservation.
    Then, finally, the third map you have illustrates the 
condition of land status following the conclusion of Public Law 
103 land exchange as amended to include the Grand Staircase, 
that agreement signed on May the 8th. So, as you can see on 
this map, there will be no trust lands within any of the 
national parks or national monuments or Native American 
reservations within the State of Utah, and we will acquire the 
large blocks that are referred to on the other map.
    I would also like to just briefly mention the methodology. 
As Secretary Babbitt explained more articulately than I can, 
the methodology was to take similar assets on Federal land and 
compare those with similar assets on State land, coal for coal, 
and then take the sum of the single parts and negotiate a total 
value. So the negotiators worked very hard to understand the 
values of our lands as well as the values of the Federal lands 
that we're acquiring.
    The last thing that I'd like to say is I would like to 
thank Commissioner Ray Powell from New Mexico, who is the 
president of the Western States Land Commissioners Association, 
and Commissioner Powell has submitted written testimony as well 
supporting this exchange, and we believe it is a first step to 
solving public land issues in Utah, as well as other western 
States.
    [The prepared statement of Mr. Terry may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much, Mr. Terry. We appreciate 
your comments.
    This is really kind of disappointing to me. I haven't had 
anybody oppose this. This kind of takes the fun out of this 
whole meeting, if I may say so.
    [Laughter.]
    The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    The testimonies that were borne this morning from Ms. Plant 
and Mr. Bean, it sounded like you were giving a lukewarm 
support for this legislation. Am I wrong in hearing your 
testimony--or maybe, maybe not? Maybe there's still some faulty 
areas in this proposed bill?
    Mr. Bean. Well, no, Representative. What you hear is years 
of frustration, but I really do think that this proposal, 
negotiated by Secretary Babbitt and Governor Leavitt, is really 
a positive proposal. It ends the controversy, and it will 
definitely be of benefit financially for the school children in 
Utah. There is no question about that.
    But I think you do--in the testimony that I did give, it 
does reflect some frustration with probably 40 or 50 years when 
we received no compensation whatever for all of those hundreds 
of thousands of acres that were contained within those parks 
and monuments, and really a great reluctance on the part of the 
bureaucracy here to do anything about that.
    I've had people--I should say this is secondhand, but 
Federal employees express the idea that it didn't make any 
difference if the lands were in parks and monuments, you know; 
we couldn't do anything with them anyway. Well, we really could 
have done something with it, and we could have developed lands 
within parks and monuments, but I don't think that would have 
been of benefit to the American people. That's why I say I 
think that the State has chosen the higher ground in those 
situations.
    Mr. Faleomavaega. So I guess it comes down to the fact that 
from both previous Democratic and Republican administrations 
the matter has still not been resolved until this 
administration. I think Secretary Babbitt could not have stated 
it better when he was specifically instructed by President 
Clinton to see to it that this matter be resolved, and I am 
very happy that Governor Leavitt's presence verified that 
commitment to see that the problem now has finally been 
resolved.
    And this does not take away the commitment as well that the 
chairman has made for all these years in trying to resolve it, 
and that's why I suggested, Mr. Chairman, that we ought to have 
the Secretary of the Interior do these negotiations from now 
on, and not leave it to his subordinates, because that seems to 
be the problem that we have every time we have hearings here.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    The gentleman from Utah, Mr. Cook.
    Mr. Cook. Yes, thank you, Mr. Chairman.
    I certainly want to commend the panel on a very excellent 
presentation on the effects of this agreement on education. Of 
course, one of the biggest issues in Utah education, and I 
think something that has broad and deep support from all 
segments of Utah, is the need to reduce class size.
    Perhaps, Dr. Bean, maybe you could give us some assessment. 
This agreement, I think one of the reasons it's supported so 
strongly is there's real hard dollars presented that would come 
very early. We've talked about up to a billion dollars, and we 
don't know how accurate that may be, but we certainly know that 
at least $50 to $60 million should come into Utah's school 
system very quickly upon ratification of this agreement.
    Could you give us some indication of what that would mean 
in terms of reduction of class size in the State of Utah?
    Mr. Bean. Well, Representative, I really appreciate the 
question. The money will go into the permanent trust fund, and 
so the potential for funding Utah schools comes not necessarily 
from the initial investment, which will yield on the interest 
basis, and the interest is what we can use. We'll probably get 
from that maybe $5 or $6 million a year, and I think we'll get 
somewhere in that vicinity. But the potential on the mineral 
part of this and the other exchanges for the value of the land 
that is being exchanged has much, much higher potential.
    I think David Terry might be able to comment on that, too, 
because they've looked at this, and we've looked at this, too, 
with the Governor's staff, and we feel like it really does have 
huge potential for bringing funds in--not next year, but in a 
10-to-15-year period it has huge potential.
    Mr. Cook. I know that the President, in his State of the 
Union address this year, also in his budget proposals in front 
of Congress, has talked about something over $1 billion 
nationwide program that I think would translate to about $4.5 
or $5 million for Utah. I have actually sent communication to 
the administration that I don't think Utah is getting its fair 
share of that whole thing.
    But how would you compare this agreement, for example, on 
exchange of trust lands with the President's proposal that he 
outlined generally for all States?
    Mr. Bean. Well, in the President's proposal we could reduce 
class size in Utah by fewer than one-third student per 
classroom on the average. So it doesn't have much effect, and 
you're right, on the formula used on that, it still, in our 
view, while we have 1 percent of the school children in the 
Nation, we get about half a percent or less under that 
proposal. So does that have much impact? No, it doesn't in 
Utah.
    In a comparative sense, this proposal could probably reduce 
class size in Utah over the years. If we take it 30 years down 
the road, and we used it for class size reduction only, I would 
estimate that we could probably reduce class size in the State 
maybe five to six students per classroom. So this has a much 
more--well, it's a huge impact on the State.
    Mr. Cook. Your estimate would indicate 15 to 18 times over 
the other program.
    Mr. Bean. Well, I don't think there's any question--or 
more.
    Mr. Cook. Thank you.
    Mr. Hansen. I thank the gentleman.
    I think this is something that Congress can do for 
education in Utah. Contrary to popular belief, Congress doesn't 
have as much to do with education as the State legislature has. 
I know when I was speaker of the house, 92 percent of all the 
money came from local areas, and we get involved in Title 9 and 
a few other things, and here's a chance to help out in a very 
worthy cause.
    I want to thank the three members of the panel who are 
before us for your excellent testimony. I am glad to see that 
there's no objection. This is the first bill that we have 
looked at for years and years that someone hasn't come on the 
other side and given us a lot of reasons why we should not pass 
it. So while I'm still in shock, let's end this meeting, OK?
    Thank you for coming.
    [Whereupon, at 10:44 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
          Statement of Joe Judd on behalf of Kane County, Utah

    Mr. Chairman, and members of the Subcommittee, I would like 
to express my great appreciation to you, on behalf of the 
Commissioners and people of Kane County, for allowing me to 
testify regarding H.R. 3830--a bill to provide for the exchange 
of lands within the State of Utah.
    Let me begin by saying that we in no way wish to interfere 
with the agreement that has been negotiated between the State 
of Utah and Department of Interior. But at the same time, we 
would like to address what we believe is the omission of Kane 
County in the positive consequences of the exchange.
    The exchange, in effect, transfers the value of mineral and 
energy resources out of Kane County to other areas of the 
state. These are values that were critical to the future 
development of the economy and communities of Kane County. In 
return, we are faced with costs and responsibilities related to 
the Grand Staircase-Escalante National Monument. Although we 
may have an increase in tourism, we are being asked to trade 
high income primary wage-eamer jobs for lower paying second-
income jobs in the tourist industry. And still, we have been 
going forward with resignation, trying to do the best we can 
with the cards we have been dealt. But, Mr. Chairman, I think 
the disparity should be more than obvious to everyone.
    It is our understanding that there will be royalties paid 
from resource development on BLM lands in some of these 
exchange areas. One-half of the royalty will be going to the 
State of Utah and the other half going to the Federal Treasury. 
It is our proposal that a significant portion of the Federal 
share go to the protection of monument resources and the 
mitigation of monument impacts on Kane County and local 
governments.
    We believe this could be implemented legislatively and not 
affect the negotiated agreement. The Federal royalties could be 
deposited in a fund for the county; a mechanism could be 
developed for the release of those funds based on criteria and 
factors to be spelled out in the bill or developed with the 
Department of Interior. The Secretary has recognized the 
appropriateness and the utility of the county role, as has the 
Congress through appropriations. This fund would decrease the 
dependency on annual appropriations.
    I am not here today representing Garfield County, but they 
may have similar concerns and may wish to participate or share 
in a fund. If that is the case, I am sure that some fair and 
proportional formula could be devised. We do not have specific 
language to offer at this time, but if the Committee is 
receptive to the general proposal, we would be happy to develop 
language with the Committee.
    Thank you again for the opportunity to testify on behalf of 
Kane County.
                                ------                                


Statement of Paula M. Plant, Legislative Vice-President, Utah State PTA

    I am Paula M. Plant, Legislative Vice-President of Utah 
PTA. I have been involved in trust lands issues for seven 
years.
    Education is one of the highest priorities for Utahns. We 
are among the leaders in performance in education, but we are 
among the lowest in per-pupil expenditures in the nation. We 
spend a greater percentage of the total state budget on 
education than any other state. Half of the annual budget goes 
to support public education. It is difficult to generate 
revenue for schools from property tax because only 21 percent 
of the state is privately held. The Federal Government owns 68 
percent of the lands, and 7 percent belongs to the school 
trust. These trust lands were given to the state at Statehood, 
as the Governor has stated, for the benefit of the 
schoolchildren.
    We experience the same difficulties as other states across 
the country. We have large classes, with growing populations of 
students attending school in trailers and on rotating schedules 
to accommodate larger enrollments than schools were built to 
hold. Classroom supply expenses and textbook fees are passed 
along to parents in every secondary school in the state. Our 
difficulties are magnified because of the inadequate revenue 
stream property taxes provide. In Utah, we stretch dollars to 
meet the needs of our children. Every nickel counts!
    Utah PTA became involved in reforming the management of the 
school trust lands about a decade ago. Utah PTA lobbied for the 
Act of 1994 which created the School and Institutional Trust 
Lands Administration, a new independent state agency with the 
responsibility of managing the trust solely for the benefit of 
the beneficiaries. The primary beneficiaries are Utah's 
schoolchildren.
    We are immensely pleased about the progress the trust lands 
agency has made and believe the independence of the agency has 
been a key factor in the positive results over the past four 
years. They are doing a great job. The total asset values of 
the trust have increased more than 10 times since 1983. Utah's 
trust lands are now managed efficiently and effectively for the 
benefit of our school. We believe these results speak for 
themselves.
    Utah PTA has been and continues to be the watchdog over our 
children's trust. We watch closely the activities of the agency 
and the Board of Trustees. We are in constant communication 
with the other education groups in Utah through the Utah State 
Public Education Coalition. We have worked together in the past 
on school trust issues. The initial announcement of the 
agreement between Governor Leavitt and Secretary Babbitt met 
with enthusiasm in our meeting last week. It is important to us 
that the fiduciary duties of all involved with the trust are 
met. We have been involved with the effort to trade the land 
out of Federal reservations in our state and have worked over 
the past two years toward fair compensation for our 
schoolchildren for the trust lands captured within the 
monument. We understand the value of the land in this proposed 
land trade. We also understand that much of the trade is 
speculative where the mineral estate is concerned.
    Recognizing that the agreement signed by Governor Leavitt 
and Secretary Babbitt is only a first step in the process of 
this kind of exchange, we are enthusiastic and optimistic about 
the benefit this exchange could have for the schoolchildren of 
our state. We also recognize the social value of solitude and 
parks and are pleased that Utah has the opportunity to offer 
these treasures to the United States. This bill will protect 
both treasures--our school and our parks.
    We have worked with our own state to see they fulfill their 
fiduciary responsibility to the schoolchildren. This is the 
opportunity for the Federal Government to fulfill theirs. The 
trust was established originally by the Federal Government to 
provide education to our children. As grantor of this trust in 
a solemn compact, the United States is also bound by a duty to 
ensure the school trust lands are used to support the public 
schools. This historic trade will allow the trust to accomplish 
that purpose.
    Thank you.



WHEREAS, At statehood the Federal Government owned well over 80 
percent of the land in the new State of Utah; and
WHEREAS, The State agreed not to tax Federal land; and
WHEREAS, Primary support for the schools at that time came 
through the property tax; and
WHEREAS, The Federal Government then granted four, one square 
mile sections in every thirty-six square mile township, to be 
held in trust for the support of the public schools; and
WHEREAS, The School Land Trust retains some 3.6 million acres 
of surface land and 4.4 million acres of underground mineral 
rights; and
WHEREAS, The Utah Legislature has created the School and 
Institutional Trust Land Administration, an independent agency, 
to manage these school lands for the sole benefit of Utah 
public schools, with strict adherence to their trust 
obligations; and
WHEREAS, Utah PTA and its constituent organizations have been 
involved in educating elected officials in Utah and nationally 
about school trust lands and their fiduciary responsibility to 
the trust. They have advocated for recent changes in the 
management and operation of the trust which has resulted in 
increased revenues. They continue to be an important voice in 
ensuring that the school children of Utah are fairly dealt with 
in relation to the trust; therefore be it
Resolved, That the Utah PTA encourage the Governor, 
Legislature, the State Treasurer, the Attomey General, the 
School and Institutional Trust Land Administration and other 
State officials to take all necessary steps to manage the 
School Trust Lands in accordance with Trust duties and 
principles, including undivided loyalty to the beneficiaries, a 
duty to make trust property productive, a duty to keep and 
render accounts, and a duty to exercise prudence and skill in 
administering the trust, thereby obtaining much-needed revenue 
for Utah's schools; and be it further
Resolved, That the Utah PTA work to encourage Federal and State 
officials to fulfill their responsibilities under the Enabling 
Act by assisting the State in proper management of school trust 
lands for their intended purpose, to support schools. In cases 
where management for Trust purposes would conflict with other 
important purposes, such as protection of archaeological, 
aesthetic, or other environmental or cultural resources, that 
the Federal Government purchase, or trade the affected lands 
for other lands of comparable value; and be it further
Resolved, That any such trade or purchase be for the full value 
of the Trust Lands, with an appropriate additional amount to 
compensate the School Trust for losses incurred due to failure 
by the Federal Government to permit reasonable development of 
the Trust Lands in question; and be it further
Resolved, That the leadership of the Utah PTA be directed to 
inform appropriate State and Federal officials of this 
resolution and work to accomplish its objectives.
                                ------                                


             Statement of Dr. Scott W. Bean, State of Utah

    Thank you for the opportunity to speak today in favor of 
the exchange of school and Federal assets as provided in H.R. 
3830. Under the Agreement signed by Governor Leavitt and 
Secretary Babbitt, clear benefits will accrue to both the 
schools of Utah and the American people as the provisions of 
this bill are enacted.
    During most of the years since statehood, Utah school lands 
have been captured within National Parks, Native American 
reservations, and National Forests without compensation. They 
have provided no support for our schools and our children. For 
three generations this abuse of trust has prevailed. There has 
been neither political will to exchange the lands nor 
compensation for their use. These captured school lands have 
pitted education against the environment, Federal employees 
against state employees, while still leaving the issue of 
compensation to our schools unresolved. Utah schools have been 
placed in the untenable and unpopular position of developing 
within the National Parks or remaining uncompensated. We chose 
the higher ground. Utah school children have gone without books 
while supporting National Parks for the enjoyment of the 
nation. Before you today, is a proposal to resolve these 
contentious land issues satisfactorily for both the schools and 
the nation. Now is the time for resolution.
    This bill will relinquish surface and mineral title to 
almost 376,000 acres of school lands captured within various 
Federal designations. Our schools will receive approximately 
130,000 acres. We acknowledge that the Federal Government will 
have a net gain of approximately one-quarter of a million 
acres. We recognize the concern that some may have over this 
significant increase in Federal ownership in a state where the 
Federal Government controls over two-thirds of the land.
    To modify this exchange in any way will disturb the 
delicate balance that has been negotiated. We believe that the 
School and Institutional Trust Lands Administration, acting on 
behalf of the children, has developed a proposal that will 
compensate us at an acceptable level. We believe that the 
Department of Interior has negotiated a proposal that is fair 
to the Federal Treasury and Federal lands. Therefore, speaking 
for Utah schools, I assert that now is the time for resolution 
using the presently negotiated agreement.
    As the State Superintendent of Public Instruction, I would 
like to emphasize the following aspects of the proposed 
exchange:

        <bullet> Utah schools are relinquishing to the Federal 
        Government all rights to the nation's largest untapped energy 
        resource in the Kaipairowits Coal Basin.
        <bullet> This proposed exchange is beneficial to the Federal 
        Government especially as compared to other recently proposed 
        exchanges involving sensitive natural resources desired for 
        protection by the Federal Government. Other exchanges have 
        offered compensation at multiples of this level for less than 1 
        percent of the lands identified in this exchange. These other 
        exchanges would benefit private interests while this exchange 
        benefits the public schools.
        <bullet> Following this exchange, the Federal Government will 
        have the opportunity to comprehensively manage our National 
        Parks and Monuments.
        <bullet> All of the school lands proposed for acquisition are 
        in areas designated for surface and mineral development, thus 
        avoiding environmentally protected areas.
        <bullet> The education community, as the beneficiary of the 
        school trust lands, offers its firm support to this Agreement 
        as long as our representatives are included in all discussions 
        and negotiations leading to a successful conclusion to this 
        advantageous exchange.
        <bullet> Our support for this proposal is conditioned upon the 
        Federal Government's and the environmental community's 
        assurances that all mineral and surface resources acquired in 
        this exchange can be fully and expeditiously developed with 
        governmental and environmental support.
    We will follow the tedious details of this exchange. It is 
significant to note where the schools receive surface and mineral 
interests as opposed to only a determinable fee interest in speculative 
coal.
    Education would like to commend the entire Utah delegation, the 
School and Institutional Trust Lands Administration, our governor and 
his staff, and Secretary Babbitt for the leadership and courage they 
have shown in developing this exchange and in resolving these 
controversial issues.
    We strongly applaud the finality of this proposed exchange. The 
Utah education community has not been well served by the expectation of 
past exchanges that have been frustrated by politics and disagreement 
over valuation. If this exchange takes place as proposed, it will 
resolve the long standing tension among educators, state and Federal 
agencies, and environmental interests and allow Utahns to work together 
toward prosperity, economic health and adequate funding for education 
in the next century.
    Furthermore, this proposed exchange will allow all Americans to 
appreciate and enjoy the beauties of our great state without 
compromising the education of Utah's children.
                                 ______
                                 

 Statement of David T. Terry, Director, Utah School and Institutional 
                       Trust Lands Administration

    Thank you for the opportunity to testify today. My name is 
David T. Terry, and I am the director of the Utah School and 
Institutional Trust Lands Administration (the ``Trust Lands 
Administration''). The Trust Lands Administration is an 
independent state agency that manages more than 3.7 million 
acres of land within Utah dedicated to the financial support of 
public education.
    It is my pleasure today to express my unconditional support 
for H.R. 3830. The May 8, 1998 Agreement between Utah Governor 
Michael O. Leavitt and Secretary of the Interior Bruce Babbitt, 
which H.R. 3830 would implement, is truly historic. My 
predecessors have been grappling with the issue of state 
inholdings in Utah's national parks, monuments, forests and 
Indian reservations for many decades. Some of you on the 
Committee will remember former Utah Governor Scott Matheson's 
efforts in the 1980s to solve the state inholdings issue once 
and for all with a statewide exchange known as Project BOLD. 
Many others have tried as well. Until May 8, all of these 
efforts had failed.
    If enacted, H.R. 3830 will resolve--fully, fairly, and 
finally)--the problem created by over 375,000 acres of school 
trust lands within such nationally-recognized areas as Arches 
National Park, Dinosaur National Monument, the Glen Canyon 
National Recreation Area, and of course the Grand Staircase-
Escalante National Monument. The inholdings problem has been a 
real one for both the State of Utah and the United States. Our 
agency has been charged--by Congress--with managing state 
school trust lands for the financial benefit of Utah's public 
education system. Yet the development of school trust lands 
within our national parks and forests is directly at odds with 
the conservation purposes for which the surrounding Federal 
lands were set aside. The May 8 agreement will allow our agency 
to do what it does best--make money for our public schools--
while eliminating this substantial source of development 
pressure from the parks.
    It is appropriate to focus in more detail on the benefits 
of H.R. 3830, both for the United States and the State of Utah:

1. The Negotiated Agreement Will Save Millions in Transaction 
Costs and Litigation Risk

    When Congress passed Public Law 103-93 in 1993, it provided 
for an appraisal-based process for valuing the state trust 
inholdings within the parks and forests. This process quickly 
broke down, for several reasons. First, the sheer magnitude of 
the lands involved made appraisals, cultural resources reviews, 
and mineral evaluations expensive and time-consuming for both 
parties. Second, the State and the United States have 
profoundly disagreed on how to value lands with nationally-
significant natural characteristics, such as natural arches or 
ancient Indian ruins. These disagreements resulted in 
litigation filed last year by the State seeking (as authorized 
by Public Law 103-93) to obtain a judicial determination of 
value.
    As a result of our trial preparations in the Public Law 
103-93 litigation, our agency was confident that it could 
obtain a judicial determination that the value of its lands was 
substantially higher than the $50 million cash payment provided 
by the May 8 agreement, and that there was little likelihood 
that value would be determined to be less than that amount. At 
the same time, litigation is expensive, time-consuming, and 
risky for all involved. Since Public Law 103-93, the State has 
spent over $3.5 million on consultants and lawyers, with more 
expenses to come. We estimate that the costs to the United 
States in out-of-pocket costs and staff time have been and 
would continue to be equally high. Governor Leavitt and 
Secretary Babbitt's agreement, if ratified by Congress, will 
save both the State and the United States millions of dollars 
over the next several years in expenses, and will eliminate 
millions more in litigation risk.
    In addition, the $50 million payment will be deposited 
immediately into the State's Permanent School Fund, as a 
permanent endowment for Utah's schools. Since litigation over 
value would take several years, the Agreement will instead 
permit Utah to receive investment returns during that interval.
    Those portions of the Agreement dealing with the Grand 
Staircase-Escalante National Monument will also permit the 
United States and the State to avoid substantial transaction 
and litigation costs. My agency manages 337 tracts within the 
Monument, totaling over 176,000 acres of fee lands, and an 
additional 24,000 acres of mineral estate. In the absence of 
agreement on values, both the State and the United States would 
find themselves repeating the expenses associated with the 
Public Law 103-93 process, at a cost of millions of dollars. 
Litigation between my agency and the United States concerning 
the creation of the Monument would continue as well; trial had 
been set to begin on March 18 of next year, with intensive 
discovery disputes already beginning. Instead, with the May 8 
agreement, we have replaced acrimony with agreement, and 
permitted both parties to put their time and resources to more 
productive use.

2. The Agreement Is Fair and Provides Equal Value for Both 
Sides

    The Grand Staircase-Escalante National Monument contains 
some of the largest untapped energy and mineral resources in 
the United States. The state trust lands in the Monument are 
estimated by the U.S. Geologic Survey and other scientific 
authorities to contain 876 million tons of recoverable coal, a 
trillion cubic feet of natural gas in coal seams, and varied 
other resources such as tar sands, uranium, and titanium. At 
the current time, the Trust Lands Administration has over 
100,000 acres in the Monument under lease for exploration/
extraction of various minerals. At the time the Monument was 
created, Andalex Resources was in the final stages of 
permitting its Smoky Hollow mine, and had expressed intent in 
writing to acquire leases for thousands of additional acres of 
trust lands, with an anticipated bonus bid to the State of more 
than $4 million, plus royalties from coal production from 
existing and new coal leases. A consortium of oil and gas firms 
was planning for a large coalbed methane extraction project, 
and had leased some 35,000 acres of trust lands for that 
project. These were not hypothetical projects; reputable and 
well-capitalized companies were spending dollars ``on the 
ground'' to develop these resources. Interest from the mineral 
industry has continued since the Monument designation; the 
Trust Lands Administration has recently received lease 
applications for 115,000 additional acres of oil and gas and 
titanium lands. Similarly, my agency has received many 
expressions of interest in purchasing or leasing school trust 
lands within the Monument for recreational and commercial use, 
although we have chosen not to pursue such transactions while 
an exchange seemed possible.
    As President Clinton stated at the time of the Monument 
declaration, the Federal Government has made the determination 
that mineral development of this nature is incompatible with 
preservation of the scientific and cultural resources the 
Monument was designed to preserve. At the same time, he 
promised that Utah's schoolchildren--the beneficiaries of the 
school trust lands in the Monument--would not be harmed by the 
loss of their lands and resources, and that all reasonable 
differences in valuation would be resolved in their favor. The 
May 8 Agreement fulfils that promise in a manner that is fair 
both to the school trust and the taxpayers of the United 
States.
    The Agreement provides that Federal lands containing 
specific types of resources--coal, coalbed methane, oil and 
gas, tar sands, and hard minerals--will be transferred to the 
State in exchange for similar lands and resources of 
substantially equivalent value found on trust lands in the 
Monument. None of the lands being acquired by the State are 
currently in production, and most are unleased (the United 
States will be acquiring more leased lands than it is giving 
up). In general, the State is giving up substantially greater 
quantities of resources than it is acquiring. However, by 
acquiring larger blocks of lands, the State gains from being 
able to obtain more effective management control of resource 
development, which has substantial, although intangible, 
economic value.
    The Agreement does not attempt to place a specific dollar 
value on these lands and resources is our belief from long 
experience that so many variable assumptions are required to 
value speculative mineral properties such as those involved on 
both sides of the exchange that any specific dollar number 
would be no better than guesswork. The old joke that it is 
possible to line up all the economists in the world and never 
reach a conclusion applies to mineral valuation consultants as 
well. That is not to say that both the State and the Department 
of Interior did not carefully ana-

lyze voluminous resource data, market analyses, and other 
pertinent information in the course of their negotiations. Both 
sides did so in the course of the spirited negotiations that 
led to the agreement, and there was substantial ``give and 
take'' by each side's technical experts on the equivalence of 
particular tracts and resources. We are confident that, as a 
whole, the May 8 Agreement reflects a transaction that is fair 
to both sides, and that provides each side with value 
substantially equivalent to the value it is relinquishing.

3. There Are Major Intangible Benefits from Completing This 
Exchange.

    The Trust Lands Administration takes its fiduciary duty of 
providing financial support to Utah's schools seriously. At the 
same time, we are citizens as well, who enjoy and appreciate 
our state's beautiful national parks, forests, and wild areas. 
The existence for many years of school trust lands within these 
areas has been a great frustration to us, as fulfilment of our 
legal duty to provide revenue to the schools--which would 
require sale or development of these lands--is in direct 
opposition to preservation of the lands. We have so far taken 
the high road, and for many years sought an exchange such as 
the one that is now before the Committee, rather than actively 
developing our sensitive lands. In future years, that might not 
have proved to be the case. H.R. 3830 offers the opportunity 
for the United States to end the threat of potential 
development within these beautiful areas, and to have perpetual 
and unified management of the lands for the purposes for which 
they were set aside. If any of the Committee has any questions 
about this particular issue, you need only look at the land 
ownership maps that are part of the record. The archaic 
checkerboard of state sections within the Monument and parks 
makes effective management difficult if not impossible. H.R. 
3830 offers the opportunity to solve this problem once and for 
all.
    In conclusion, I would suggest that one other intangible, 
but hugely important, benefit can come from the implementation 
of the May 8 Agreement--trust. The lingering problem of the 
Public Law 103-93 lands, the surprise designation of the Grand 
Staircase-Escalante National Monument, and the litigation that 
has unsurprisingly followed, created an atmosphere of distrust 
between the State and the Department of Interior that is 
difficult to describe. In recent months, and culminating in the 
Agreement, that atmosphere of distrust has been replaced with a 
new spirit of communication and cooperation. A number of 
members of the Committee have helped with this pleasant 
change--the Trust Lands Administration would particularly thank 
Representatives Cannon, Hinchey and others for their efforts 
last year in requesting the Department of Interior to consider 
a negotiated solution, which has now occurred. If H.R. 3830 is 
passed, we will have resolved one of the thorniest western 
public lands issues, and set the stage for resolving other 
disputed issues through dialogue rather than public dispute.
    On behalf of the Utah School and Institutional Trust Lands 
Administration, I urge the Committee and Congress to enact H.R. 
3830 speedily and without encumbrance. Again, thank you for the 
opportunity to testify today.

[GRAPHIC] [TIFF OMITTED] T9273.001

[GRAPHIC] [TIFF OMITTED] T9273.002

[GRAPHIC] [TIFF OMITTED] T9273.003

[GRAPHIC] [TIFF OMITTED] T9273.004

[GRAPHIC] [TIFF OMITTED] T9273.005


</pre></body></html>
